APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fifth Circuit
(February 27, 2020) . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court for the Northern District of
Texas, Dallas Division
(August 1, 2019) . . . . . . . . . . . . . . App. 6
Appendix C Opinion in the United States Court of
Appeals for the Fifth Circuit
(June 6, 2019) . . . . . . . . . . . . . . . . App. 8
Appendix D Order in the United States District
Court for the Northern District of
Texas, Dallas Division
(April 16, 2018) . . . . . . . . . . . . . . App. 14
Appendix E Memorandum Opinion and Order in
the United States District Court for
the Northern District of Texas, Dallas
Division
(March 1, 2018) . . . . . . . . . . . . . . App. 21
Appendix F Memorandum Opinion and Order in
the United States District Court for
the Northern District of Texas, Dallas
Division
(February 9, 2018) . . . . . . . . . . . App. 40

ii
Appendix G Order Denying Rehearing in the
United States Court of Appeals for the
Fifth Circuit
(April 9, 2020) . . . . . . . . . . . . . . . App. 63
Appendix H Statutory Provisions Involved . . . . . . 66
Appendix I Letter from International Academies
of Emergency Dispatch to Chief
Justice Roberts, Jr.
(October 23, 2017) . . . . . . . . . . . . App. 71

App. 1

APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_____________
No. 19-10878
Summary Calendar
_____________
[Filed: February 27, 2020]
____________________________________________
BRIDGET ALEX, Individually and on behalf
of the Estate of Brandon Alex;
JASHAWN ALEX; MICHAELLE COHEN;
ESTATE OF BRANDON ALEX;
DETREASURE COKER,

)
)
)
)
)
)
Plaintiffs - Appellants
)
v.
)
)
T-MOBILE USA, INCORPORATED;
)
T-MOBILE US INCORPORATED,
)
formerly known as MetroPCS
)
Communications Incorporated; METROPCS
)
MIDWAY RD; DEUTSCHE TELEKOM
)
NORTH AMERICA INCORPORATED;
)
T-SYSTEMS NORTH AMERICA
)
INCORPORATED,
)
)
Defendants - Appellees
)
_____________________________________________)

App. 2
___________________________________________
ESTATE OF BRANDON ALEX,
)
through personal representative Detreasure )
Coker; DETREASURE COKER, individually )
and as surviving mother of Brandon Alex,
)
deceased
)
)
Plaintiffs - Appellants
)
)
v.
)
)
T-MOBILE US INCORPORATED,
)
formerly known as MetroPCS
)
Communications Incorporated; T-MOBILE
)
USA, INCORPORATED; T-SYSTEMS
)
NORTH AMERICA INCORPORATED;
)
DEUTSCHE TELEKOM
)
NORTH AMERICA INCORPORATED
)
)
Defendants - Appellees
)
___________________________________________ )
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:17-CV-1532
USDC No. 3:17-CV-2622
Before DAVIS, SMITH, and HIGGINSON, Circuit
Judges.

App. 3
PER CURIAM:*
This case comes before us a second time after
remand to the district court. See Alex v. T-Mobile USA,
Inc., 776 F. App’x 205 (5th Cir. 2019). Brandon Alex’s
family members sued T-Mobile USA, Inc., T-Mobile US,
Inc. (collectively, “T-Mobile”), Deutsche Telkom North
America, Inc., and T-Systems North America, Inc.
(collectively, “T-Systems”), alleging that a defect in
their 9-1-1 technology prevented first responders from
arriving in time to save Brandon’s life. Because, as we
previously concluded, T-Mobile and T-Systems are
immune under Texas law, we AFFIRM the district
court’s dismissal.
Seven-month-old Brandon Alex was injured after
falling from a daybed. His babysitter dialed 9-1-1 three
separate times, and stayed on an unconnected line for
over thirty minutes. Unable to connect to a dispatcher,
Brandon’s grandmother drove him to an emergency
room over an hour after the first 9-1-1 call. Brandon
was pronounced dead shortly after arriving at the
hospital.
Brandon’s family members sued T-Mobile and TSystems for claims arising from Brandon’s death. Both
Defendants moved to dismiss, asserting statutory
immunity under Texas law. Although the district court
denied those motions, we reversed on interlocutory
appeal and remanded “with instructions to dismiss the
action against T-Mobile.” Id. at 207.
*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App. 4
On remand, Plaintiffs argued that some of their
claims survived our ruling. The district court
disagreed. It correctly read our opinion “to mean that
Defendants are statutorily immune from [all of]
Plaintiffs’ claims,” and dismissed all claims against TMobile and T-Systems with prejudice. Plaintiffs now
bring this second appeal.
This court has already held that, under the
Supreme Court of Texas’s decision in City of Dallas v.
Sanchez, 494 S.W.3d 722 (Tex. 2016), Plaintiffs failed
to allege proximate cause sufficient to overcome TMobile’s immunity.1 Plaintiffs’ new appeal raises many
of the same arguments. Then, as now, Plaintiffs argued
that Sanchez does not require dismissal of each of their
claims. And then, as now, we disagreed—we directed
the district court to “dismiss the action against TMobile.” Alex, 776 F. App’x at 207.
Plaintiffs try to sidestep our prior decision by
arguing that we previously considered only the original
complaint, and not the amended complaint. The
amended complaint, however, was part of the record in
the first appeal, and Plaintiffs cited exclusively to it.
We still determined that dismissal of “the action”—not
a particular complaint—was required by Texas law.
And Plaintiffs’ allegations in the amended complaint
1

In Sanchez, two parents alleged that a defect in the City of
Dallas’s 9-1-1 system caused their son’s death by preventing first
responders from timely responding to his overdose. The Texas
Supreme Court announced that “the use of property that simply
hinders or delays treatment does not actually cause the injury and
does not constitute a proximate cause of an injury.” 494 S.W.3d at
726 (citations and quotations omitted).

App. 5
are based on the same causal theory: that Defendants’
technology caused Brandon’s death because it
prevented him from receiving “timely police and/or
EMT assistance.”
Because T-Mobile and T-Systems are immune under
Texas law, the district court did not err in dismissing
Plaintiffs’ claims against them—we affirm.
AFFIRMED; MOTION TO DISMISS APPEAL AS
FRIVOLOUS DENIED.

App. 6

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:17-cv-1532-M
(Consolidated with 3:17-cv-2622-M)
[Filed: August 1, 2019]
______________________________________
BRIDGET ALEX, individually and on
behalf of the ESTATE OF BRANDON
ALEX, JASHAWN ALEX, and
MICHAELLE COHEN,

)
)
)
)
)
Plaintiffs,
)
)
v.
)
)
T-MOBILE USA, INC., T-MOBILE US, )
INC., formerly known as MetroPCS
)
Communications, Inc., and METROPCS )
MIDWAY RD.,
)
)
Defendants.
)
______________________________________ )

App. 7
ORDER
Before the Court are Defendants T-Mobile USA, Inc.
and T-Mobile US, Inc.’s Motion to Dismiss Plaintiffs’
Second Amended Complaint (ECF No. 34); Defendants
T-Systems North America, Inc. and Deutsche Telekom
North America, Inc.’s Motion to Dismiss Plaintiffs’
Second Amended Complaint (ECF No. 35); and
Defendant T-Mobile’s Motion to Dismiss Plaintiff’s
First Amended Complaint (ECF No. 38). The Motions
are GRANTED. This Court reads the Fifth Circuit’s
Opinion of June 6, 2019 (ECF No. 56) to mean that
Defendants are statutorily immune from Plaintiffs’
claims. Therefore, Plaintiffs’ claims are DISMISSED
WITH PREJUDICE.
SO ORDERED.
August 2, 2019.
/s/ Barbara M. G. Lynn
BARBARA M. G. LYNN
CHIEF JUDGE

App. 8

APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
____________
No. 18-10555
____________
[Filed: June 6, 2019]
__________________________________________
BRIDGET ALEX, Individually and on
)
Behalf of the Estate of Brandon Alex;
)
JASHAWN ALEX; MICHAELLE COHEN; )
ESTATE OF BRANDON ALEX;
)
DETREASURE COKER,
)
)
Plaintiffs-Appellees
)
)
v.
)
)
T-MOBILE USA, INCORPORATED;
)
T-MOBILE US INCORPORATED,
)
formerly known as MetroPCS
)
Communications Incorporated,
)
)
Defendants - Appellants
)
__________________________________________)
Appeal from the United States District Court for the
Northern District of Texas
USDC No. 3:17-CV-1532
USDC No. 3:17-CV-2622

App. 9
Before CLEMENT, GRAVES, and OLDHAM, Circuit
Judges.
PER CURIAM:*
After Brandon Alex’s death, members of his family
(collectively, the “Estate”) sued T-Mobile USA, Inc. and
T-Mobile US, Inc. (collectively, “T-Mobile”) and alleged
that T-Mobile caused Brandon’s death because its
failed technology prevented Brandon from receiving
timely medical attention after an injury. The district
court rejected T-Mobile’s assertion of statutory
immunity because the Estate had plausibly alleged
that T-Mobile’s service was the proximate cause of
Brandon’s death. Although this case is tragic, and the
Estate’s claim is emotionally compelling, Texas law
appears to insulate T-Mobile from suit—we reverse.
FACTS AND PROCEEDINGS
On March 11, 2017, seven-month old Brandon Alex
was injured after falling from a daybed. His babysitter
dialed 9-1-1 three separate times from her TMobile/MetroPCS cell phone. She was placed on hold
each time, for a total of more than forty minutes.
Unable to connect to a dispatcher, she eventually called
Brandon’s grandmother, who drove him to an
emergency room more than an hour after the first 9-1-1
call. Brandon was pronounced dead soon after arriving
at the hospital.

*

Pursuant to 5TH CIR. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5TH CIR. R. 47.5.4.

App. 10
The Estate sued T-Mobile in state court for claims
arising from Brandon’s death. The matter was removed
to the Northern District of Texas. T-Mobile moved to
dismiss the claims, asserting statutory immunity. The
district court held that statutory immunity did not bar
the claims. The district court certified its decision for
interlocutory appeal, concluding that it presented the
following question of law: “whether, as a matter of law,
the use of property that hinders or delays treatment,
without other intervening causes, can never be the
proximate cause of an injury.”
STANDARD OF REVIEW
We review de novo a district court’s denial of a
motion to dismiss, “accepting all well-pleaded facts as
true and viewing those facts in the light most favorable
to the plaintiff[s].” Billings v. Propel Fin. Servs., L.L.C.,
821 F.3d 608, 611 (5th Cir. 2016) (quotation omitted).
DISCUSSION
In a four-page opinion, the Supreme Court of Texas
provided guidance on what constitutes proximate cause
in a similar case. City of Dall. v. Sanchez, 494 S.W.3d
722 (Tex. 2016). Sanchez’s parents sued the City of
Dallas for negligence, alleging that the City’s defective
9-1-1 system caused their son’s death. Id. The City
moved to dismiss the claims, asserting governmental
immunity under the Texas Tort Claims Act (“TTCA”).
To establish a waiver of governmental immunity, the
parents needed to establish that “the phone’s condition
was a proximate cause of Sanchez’s death.” Id. at 726.

App. 11
The court articulated the following rule:
Proximate cause requires both cause in fact
and foreseeability. For a condition of property to
be a cause in fact, the condition must serve as a
substantial factor in causing the injury and
without which the injury would not have
occurred. When a condition or use of property
merely furnishes a circumstance that makes the
injury possible, the condition or use is not a
substantial factor in causing the injury. To be a
substantial factor, the condition or use of the
property must actually have caused the injury.
Thus, the use of property that simply hinders or
delays treatment does not actually cause the
injury and does not constitute a proximate cause
of an injury.
Id. at 726 (citations and quotations omitted) (emphasis
added).
Under Texas Health and Safety Code §§ 771.053(a)
and 772.407, T-Mobile is immune from claims arising
out of its provision of 9-1-1 services “unless the act or
omission proximately causing the claim, damage, or
loss constitutes gross negligence, recklessness, or
intentional misconduct.” So, the Estate must establish
proximate cause to prevail on a claim against T-Mobile
under the statutes.1 See id.

1

The Estate argues that “[a]s long as pleadings plausibly allege
gross negligence, recklessness and/or intentional misconduct,
§§ 771.053(a) and 772.407 provide no immunity to T-Mobile.”
However, this is at odds with the quoted portion of the relevant
statutes.

App. 12
The parties debate the binding effect of the abovequoted Sanchez statement. At an absolute minimum,
the statement is non-erroneous judicial dictum, and we
must follow it under the Erie doctrine.2
In Texas, there are two types of dicta: obiter dictum
and judicial dictum. Autobahn Imports, L.P. v. Jaguar
Land Rover N. Am., L.L.C., 896 F.3d 340, 346 (5th Cir.
2018). Obiter dictum is made in passing and is not
binding. Id. Judicial dictum is “a statement made
deliberately after careful consideration and for future
guidance in the conduct of litigation.” Id. Judicial
dictum “should be followed unless found to be
erroneous.” Id.
In Sanchez, the statement appears as the
culminating point of the rule statement. Sanchez, 494
S.W.3d at 726. Based on the language and structure of
the opinion, this statement appears to be deliberate
and “plainly intended to guide future courts and
litigants” on the appropriate requirements to establish
proximate cause in similar circumstances. Autobahn,
896 F.3d at 347 (emphasis removed). Accordingly, the
statement must at least be treated as judicial dictum.3
To the extent the facts in Sanchez are slightly
different from those at hand, “this court must make an
2

While T-Mobile argues that the Sanchez statement was not
dictum at all, we need not reach this issue.
3

And the Estate cannot show that the statement is somehow
erroneous. Indeed, it is consistent with the approach to proximate
causation that Texas outlined more than a decade earlier. See Tex.
Dep’t of Criminal Justice v. Miller, 51 S.W.3d 583, 587–88 (Tex.
2001) (cited favorably in Sanchez).

App. 13
‘Erie guess,’ i.e., forecast how the Supreme Court of
Texas ‘would rule.’” Mid-Continent Cas. Co. v. Eland
Energy, Inc., 709 F.3d 515, 520 (5th Cir. 2013) (citing
Paz v. Brush Engineered Materials, Inc., 555 F.3d 383,
392 (5th Cir. 2009)). “This prediction may be based on
[Texas] case law, dicta, general rules on the issues,
decisions of other states, and secondary sources.” Id.
(alteration in original).
Based on the express language of the Sanchez
statement, we conclude that the Supreme Court of
Texas would probably rule that the Estate has failed to
plead facts that could support a finding of proximate
cause. Accordingly, the district court erred in
attempting to modify Texas’s proximate cause law. See
W.-S. Life Assurance Co. v. Kaleh, 879 F.3d 653, 658
(5th Cir. 2018) (“When making an Erie guess, [o]ur
task is to attempt to predict state law, not to create or
modify it.” (alteration in original) (quotation omitted)).
CONCLUSION
For the foregoing reasons, we REVERSE the district
court and REMAND with instructions to dismiss the
action against T-Mobile.

App. 14

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:17-cv-1532-M
(Consolidated with 3:17-cv-2622-M)
[Filed: April 16, 2018]
__________________________________________
BRIDGET ALEX, individually and on
)
behalf of the ESTATE OF BRANDON
)
ALEX, JASHAWN ALEX, and
)
MICHAELLE COHEN,
)
)
Plaintiffs,
)
)
v.
)
)
T-MOBILE USA, INC., T-MOBILE US,
)
INC., formerly known as MetroPCS
)
Communications, Inc., and METROPCS
)
MIDWAY RD.,
)
)
Defendants.
)
__________________________________________)
ORDER
Before the Court is T-Mobile USA, Inc. and
T-Mobile US, Inc.’s Motion for Reconsideration and, in
the Alternative, Motion for Certification of Permissive

App. 15
Interlocutory Appeal. (ECF No. 31). For the reasons
stated below, the Motion for Certification is
GRANTED, and the Motion for Reconsideration is
DENIED as moot.
I. Factual and Procedural Background
On March 11, 2017, Brandon Alex was injured when
he “rolled off the daybed and onto the floor.” (Am.
Compl. ¶ 25, ECF No. 28). Michaelle Cohen, his
babysitter, found him “grasping and barely breathing.”
(Id.) Ms. Cohen repeatedly dialed 9-1-1 from her
cellphone, but was placed on hold each time. (Id. ¶ 26).
Collectively, Ms. Cohen was placed on hold for more
than forty minutes. (Id.) Unable to connect to the 9-1-1
dispatcher, Ms. Cohen contacted Brandon Alex’s
mother, Bridget Alex, who later drove him to an
emergency room. (Id. ¶ 29). Unfortunately, Brandon
Alex was pronounced dead on arrival at the hospital.
(Id.)
Brandon Alex’s parents—Jashawn and Bridget
Alex—and Michaelle Cohen filed suit against T-Mobile
USA, Inc. and T-Mobile US, Inc. (collectively,
“T-Mobile”) for claims arising out of Brandon Alex’s
death. They asserted that had T-Mobile’s 9-1-1
“services, software, products, and technology. . .worked
as required,” Brandon Alex would have received timely
medical assistance and survived. (Am. Compl. ¶ 32).
Brandon Alex’s alleged biological mother, Detreasure
Coker, filed a separate suit against T-Mobile and raised
similar claims.1
1

Ms. Coker’s suit was later consolidated with this one.
(Consolidation Order at 1-2, ECF No. 29).

App. 16
In moving to dismiss both suits, T-Mobile asserted
that it was statutorily immune from all claims arising
out of its provision of 9-1-1 services. See TEX. HEALTH
& SAFETY CODE § 771.053(a). Relevant here, Plaintiffs
had to allege that T-Mobile proximately caused
Brandon Alex’s death to overcome immunity. T-Mobile
had argued that, as a matter of law, Plaintiffs could not
establish proximate cause because the alleged defects
in its 9-1-1 technologies simply hindered or delayed
Brandon Alex’s treatment. The Court rejected
T-Mobile’s argument and held that statutory immunity
did not bar Plaintiffs’ claims. See Estate of Alex through
Coker v. T-Mobile US, Inc., No. 3:17-cv-2622-M, 2018
WL 1122193, at *4 (N.D. Tex. Mar. 1, 2018) (ECF No.
35); Alex v. T-Mobile USA, Inc., No. 3:17-cv-1532-M,
2018 WL 806992, at *4 (N.D. Tex. Feb. 9, 2018) (ECF
No. 27). T-Mobile moves for reconsideration and, in the
alternative, certification for interlocutory appeal of the
Court’s orders on statutory immunity. (Pl. Mot. at
11-14, ECF No. 31).
II. Legal Standard
In its discretion, a court may certify for
interlocutory appeal an order that involves “[1] a
controlling question of law [2] as to which there is
substantial ground for difference of opinion and [3] that
an immediate appeal . . . may materially advance the
ultimate termination of the litigation.” 28 U.S.C.
§ 1292(b); see also Swint v. Chambers County Comm’n,
514 U.S. 35, 47 (1995). In addition to the statutory
requirements, the court must also consider a party’s
diligence in seeking certification and whether there
have been any material intervening occurrences. See,

App. 17
e.g., T & E Inv. Grp. LLC v. Faulkner, 2014 WL
11512366, at *2 (N.D. Tex. May 19, 2014). The moving
party has the burden to demonstrate the need for
interlocutory appeal. See Coates v. Brazoria Cty. Tex.,
919 F. Supp. 2d 863, 867 (S.D. Tex. 2013).
III. Analysis
Because the requirements under 28 U.S.C. § 1292(b)
are satisfied, the Court certifies its February 9, 2018,
and March 1, 2018, Orders for interlocutory appeal.
The Orders both raise a controlling question of law:
whether, as a matter of law, the use of property that
hinders or delays treatment, without other intervening
causes, can never be the proximate cause of an injury.
(Def. Mot. at 11); see Coker, 2018 WL 1122193, at *3
n.4; Alex, 2018 WL 806992, at *3 n.2. The Texas
Supreme Court suggested such in dicta in City of
Dallas v. Sanchez. See 494 S.W.3d 722, 726 (Tex. 2016)
(“[U]se of property that simply hinders or delays
treatment does not ‘actually cause[ ] the injury’ and
does not constitute a proximate cause of an injury.”).
If delays caused by defects in 9-1-1 technologies are
never actionable as a matter of law, due to the absence
of proximate cause, then T-Mobile has statutory
immunity against Plaintiffs’ claims. Such a finding
would eliminate the need for trial altogether. See
Coates, 919 F. Supp. 2d at 867 (noting that immediate
appeal advances the ultimate termination of litigation
by “eliminate[ing] the need for trial”); Gen. Elec. Co. v.
Mitsubishi Heavy Indus., Ltd., 2012 WL 12985134, at
*2 (N.D. Tex. Feb. 7, 2012) (“An issue of law generally
is controlling if its incorrect disposition would result in
reversal of a final judgment.”). Indeed, interlocutory

App. 18
appeal is particularly appropriate here because
“immunity is intended to shield the defendant from the
burdens of defending the suit, including the burdens of
discovery.” See Freeman v. United States, 556 F.3d 326,
342 (5th Cir. 2009). Without immediate appeal, this
issue will not be reviewed until after trial, when
T-Mobile will have lost much of the benefits of
statutory immunity. Trial courts therefore often certify
orders regarding immunity and jurisdiction. See, e.g.,
Rodriguez v. Christus Spohn Health Sys. Corp., 628
F.3d 731, 734 (5th Cir. 2010); Lonatro v. United States,
714 F.3d 866, 869 (5th Cir. 2013).
There is also a substantial ground for difference of
opinion on this issue. In fact, another judge in this
Court adopted the language of Sanchez that the Court
found to be dicta, noting that “the use of property that
simply hinders or delays treatment does not actually
cause the injury and does not constitute a proximate
cause of an injury.” See Kelley v. City of Dallas, 2017
WL 3891680, at *1 (N.D. Tex. Aug. 17, 2017) (Toliver,
M.J.), report and recommendation adopted, 2017 WL
3868257 (N.D. Tex. Sept. 5, 2017) (Boyle, J.) (internal
quotation marks omitted). While Kelley is
distinguishable in material respects from this case, the
Court recognizes that the law is unsettled. The Court
can “actually envision [Sanchez] being interpreted
differently.” Morales v. Redco Transp. Ltd., 2016 WL
7734647, at *1 (S.D. Tex. Jan. 13, 2016); see also Odle
v. Wal-Mart Stores Inc., 2013 WL 66035, at *3 (N.D.
Tex. Jan. 7, 2013) (certifying an issue for interlocutory
appeal where other courts have held otherwise).

App. 19
Finally, T-Mobile was diligent in moving for
certification within the month of the Court’s orders on
statutory immunity. See Travelers Indem. Co. of Conn.
v. Presbyterian Healthcare Res., 2004 WL 2186547, at
*2 (N.D. Tex. Sept. 28, 2004) (finding five-month delay
in seeking interlocutory appeal and an intervening
scheduling order sufficient to deny certification).
IV. Conclusion
For the reasons stated above, the Motion for
Certification of Permissive Interlocutory Appeal is
GRANTED. The Court certifies the orders for
interlocutory appeal to resolve whether, under City of
Dallas v. Sanchez, 494 S.W.3d 722 (Tex. 2016), the use
of property that hinders or delays treatment, without
another intervening cause, can never be the proximate
cause of an injury.2 Because the Court certifies the
orders, the Motion for Reconsideration is DENIED as
moot.
The case is stayed pending the interlocutory appeal.
The parties are directed to advise the Court, in writing,
within fifteen days of the resolution of the appeal.

2

The Court would have preferred to certify the question to the
Texas Supreme Court, but is prohibited from doing so. See TEX. R.
APP. P. 58.1 (“The Supreme Court of Texas may answer questions
of law certified to it by any federal appellate court if the certifying
court is presented with determinative questions of Texas law
having no controlling Supreme Court precedent.”).

App. 20
SO ORDERED.
April 16, 2018.
/s/ Barbara M. G. Lynn
BARBARA M. G. LYNN
CHIEF JUDGE

App. 21

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:17-cv-2622-M
[Filed: March 1, 2018]
__________________________________________
ESTATE OF BRANDON ALEX, through
)
personal representative Detreasure Coker, )
and DETREASURE COKER, individually
)
and as surviving mother of Brandon Alex,
)
deceased,
)
)
Plaintiffs,
)
)
v.
)
)
T-MOBILE US, INC., f/k/a MetroPCS
)
Communications, Inc.;
)
T-MOBILE USA, INC.; T-SYSTEMS
)
NORTH AMERICA, INC.; and
)
DEUTSCHE TELEKOM NORTH
)
AMERICA, INC.,
)
)
Defendants.
)
__________________________________________)

App. 22
MEMORANDUM OPINION AND ORDER
Before the Court is Defendants’ Motion to Dismiss,
(ECF No. 13), and Motion for Leave to File Second
Amended Complaint, (ECF No. 30). For the reasons
stated below, the Motion to Dismiss is GRANTED IN
PART and DENIED IN PART, and the Motion for
Leave is GRANTED.
I.

Factual and Procedural Background

On March 11, 2017, Brandon Alex was injured when
he “fell from a daybed.” (Am. Compl. ¶ 12, ECF No. 10).
His babysitter found him “breathing too faintly.” (Id.)
The babysitter repeatedly dialed 9-1-1 from her
cellphone, but was placed on hold each time. (Id. ¶ 13).
Collectively, the babysitter was placed on hold for more
than forty minutes. (Id.) Unable to connect to the 9-1-1
dispatcher, the babysitter contacted Brandon Alex’s
grandmother, Bridget Alex, who later drove him to an
emergency room. (Id. ¶¶ 13-14). Unfortunately,
Brandon Alex was pronounced dead soon after arriving
at the hospital. (Id. ¶ 14).
Plaintiffs instituted this action in the 95th Judicial
District Court of Dallas County, Texas, for claims
arising from Brandon Alex’s death. Their claims
include negligence, gross negligence, products liability,
violation of the Texas Civil Wiretap Act, (“CWA”), and
violation of the Texas Deceptive Trade Practices Act
(“DTPA”). (Id. ¶¶ 38-45, 51-64). Detreasure Coker,
alleged to be Brandon Alex’s biological mother, also
alleges wrongful death and survival claims. (Id.
¶¶ 66-72). Defendants removed the case to this Court,
but the case has been stayed pending the Court’s

App. 23
resolution of Defendants’ Motion to Dismiss. (ECF No.
22).
II.

Motion to Dismiss
a. Legal Standard

A pleading must contain “a short and plain
statement of the claim showing that the pleader is
entitled to relief.” FED. R. CIV. P. 8(a)(2). The pleading
standard Rule 8 announces does not require “detailed
factual allegations,” but it does demand more than an
unadorned accusation devoid of factual support.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007)). To
survive a motion to dismiss, a complaint must contain
sufficient factual matter to state a claim for relief that
is plausible on its face. Twombly, 550 U.S. at 570. The
court must accept all of the plaintiff’s factual
allegations as true, but it is not bound to accept as true
“a legal conclusion couched as a factual allegation.” Id.
at 555. Where the factual allegations do not permit the
court to infer more than the mere possibility of
misconduct, the complaint has stopped short of
showing that the pleader is plausibly entitled to relief.
Iqbal, 556 U.S. at 678.
b. Analysis
i. Statutory Immunity
Under Texas law, wireless service providers and
manufacturers have some statutory immunity from
claims arising out of their provision of 9-1-1 services

App. 24
under Section 771.053(a) of the Texas Health and
Safety Code,1 which states:
A service provider of communications service
involved in providing 9-1-1 service, a
manufacturer of equipment used in providing
9-1-1 service, [or] a developer of software used in
providing 9-1-1 service . . . is not liable for any
claim, damage, or loss arising from the provision
of 9-1-1 service unless the act or omission
proximately causing the claim, damage, or loss
constitutes gross negligence, recklessness, or
intentional misconduct.
Accordingly, to qualify for statutory immunity, a
defendant must be one of the covered entities involved
in providing 9-1-1 services, and the claims against it
must arise from the provision of 9-1-1 services.
Defendants meet both conditions. Plaintiffs allege
that Defendants operate 9-1-1 communications
1

Plaintiffs argue that the Court should instead evaluate immunity
under Section 772.407 of the Texas Health and Safety Code. (Pl.
Resp. at 17, ECF No. 21). Section 772.407 and Section 771.053(a)
are not mutually exclusive. The former covers entities involved in
providing 9-1-1 services in a county whereas the latter more
broadly covers such entities in the state. Compare § 772.047
(applying to counties with population over two million) with
§ 772.053(a) (setting forth “[s]tatewide [l]imitation” on liability).
Moreover, the language of Section 772.407 is “nearly identical to
the language of section 771.053(a).” See Cook v. City of Dallas, 683
F. App’x 315, 319 n.3 (5th Cir. 2017). Defendants argue that they
are immune under Section 771.053(a), and the Court evaluates
Plaintiffs’ claims under that section. See also id. at 319 (evaluating
T-Mobile’s statutory immunity under Section 771.053(a) for claims
related to a 9-1-1 call in Dallas).

App. 25
services, (id. ¶¶ 17-18), create software used in
providing 9-1-1 services, (id. ¶¶ 57-58), or provide 9-1-1
capable cellphones, (id. ¶ 12-13), and that their claims
arise from the provision of 9-1-1 services. (See id. ¶ 59
(“The harm to Plaintiffs resulted directly from the
software modifications that prevented Brandon’s
babysitter from reaching 9-1-1 in time to save his
life.”); id. ¶¶ 21-22, 38-45).2
However, the statutory immunity provided by
Section 771.053(a) is not absolute. To overcome
Defendants’ claim of immunity, Plaintiffs must
plausibly allege that Defendants proximately caused
Brandon Alex’s death and that Defendants’ acts or
omissions constituted gross negligence, recklessness, or
intentional misconduct. Cook, 683 F. App’x at 319
(citing TEX. HEALTH & SAFETY CODE § 771.053(a)).
Because Plaintiffs have plausibly alleged proximate
cause and gross negligence, for the reasons discussed
below, the Court declines to dismiss their claims on
immunity grounds.
1. Proximate Cause
The components of proximate cause are
cause-in-fact and foreseeability. See Ryder Integrated
Logistics, Inc. v. Fayette Cty., 453 S.W.3d 922, 929 (Tex.
2015) (citation omitted). A tortious act or omission is a
cause-in-fact if it serves as “a substantial factor in

2

See also TEX. HEALTH & SAFETY CODE § 771.001 (“9-1-1
service means a communications service that connects users to a
public safety answering point through a 9-1-1 system.”). Plaintiffs’
claims arise from the babysitter’s inability to connect with the
9-1-1 operator.

App. 26
causing the injury and without which the injury would
not have occurred.” Del Lago Partners, Inc. v. Smith,
307 S.W.3d 762, 774 (Tex. 2010). An injury is
foreseeable “if, in light of all the circumstances, a
reasonably prudent man would have anticipated that
the injury would be a consequence of the act or
omission in question.” Hall v. Atchison, T. & S. F. Ry.
Co., 504 F.2d 380, 385 (5th Cir. 1974). Proximate cause
cannot be established by “mere conjecture, guess, or
speculation.” HMC Hotel Props. II Ltd. P’ship v.
Keystone-Texas Prop. Holding Corp., 439 S.W.3d 910,
913 (Tex. 2014).
The case of City of Dallas v. Sanchez is instructive
on what constitutes proximate cause in a circumstance
similar to the one presented here. 494 S.W.3d 722 (Tex.
2016). In Sanchez, 9-1-1 dispatchers received two calls
within ten minutes of each other. Id. at 725. Both
calls—from two different callers—originated from the
same apartment complex, and both requested
assistance with a drug overdose victim. Id. After the
dispatcher informed the person calling on behalf of
Matthew Sanchez that emergency responders were on
route, the call was disconnected. Id. Once responders
arrived at the apartment complex, “they erroneously
concluded that the two 9-1-1 calls were redundant and
that a single individual was the subject of both calls.”
Id. Responders ultimately never went to the apartment
of Sanchez, who died six hours later. Id. Sanchez’s
parents sued the City of Dallas, alleging that the 9-1-1
call was disconnected as a result of a defect in the
City’s phone system. Id. They alleged that their son
would have received life-saving medical care but for
this defect, which prevented responders from having

App. 27
sufficient information to correctly differentiate the two
calls. Id.
The key issue before the Texas Supreme Court was
whether the plaintiffs had sufficiently alleged, to
survive a motion to dismiss, that a defective 9-1-1
system proximately caused Sanchez’s death.3 Sanchez,
494 S.W.3d at 726. The court held that due to
intervening factors, Plaintiffs could not establish
proximate cause. See id. at 728 (The death was caused
by “drugs, the passage of time, and misinterpretation
of information [by the emergency responders],” and the
alleged malfunction was merely one of a “series of
factors that contributed to Sanchez not receiving timely
medical assistance.”); id. at 727-28 (“Between the
alleged malfunction and Sanchez’s death, emergency
responders erroneously concluded separate 9-1-1 calls
were redundant and left the apartment complex
without checking the specific apartment unit the

3

This issue came up in the following way. The City argued that
governmental immunity protected it from liability. Sanchez, 494
S.W.3d at 725. The plaintiffs argued that immunity was waived
under the Texas Tort Claims Act (“TTCA”), TEX. CIV. PRAC. & REM.
CODE § 101.021. For immunity to be waived under the TTCA,
“personal injury or death must be proximately caused by a
condition or use of tangible personal or real property.” Dallas Cty.
Mental Health & Mental Retardation v. Bossley, 968 S.W.2d 339,
342–43 (Tex. 1998) (emphasis added). The City argued that
immunity applied because Sanchez’s death was caused by a drug
overdose, not the 9-1-1 system. Sanchez, 494 S.W.3d at 725. Thus,
although it was not addressing Section 771.053(a), Sanchez was
addressing proximate cause in a similar factual context.

App. 28
dispatcher had provided to them.”). Accordingly, the
court held that immunity applied.4
The Fifth Circuit, in an unpublished opinion in
another case, reached a similar conclusion. In Cook, the
victim, Deanna Cook, called 9-1-1 from her cellphone
while an intruder was attacking her inside her home.
683 F. App’x at 317. Location-tracking technology sent
Cook’s location to the 9-1-1 dispatcher “within several
minutes” of the call. Id. “Nearly fifty minutes after
Cook placed her 9-1-1 call, police officers arrived at
Cook’s home.” Id. However, the officers only inspected
the outside of Cook’s home and “left without entering
the residence.” Id. Cook’s family found her body in the
home two days later. Id. Members of Cook’s family filed
suit against T-Mobile, alleging that it failed to
implement proper location-tracking that would have
4

The Texas Supreme Court also noted that “the use of property
that simply hinders or delays treatment does not ‘actually cause[]
the injury’ and does not constitute a proximate cause of an injury.”
Sanchez, 494 S.W.3d at 727. The statement is dictum because the
court’s actual analysis does not rely on this statement. As
discussed, the court found, as a matter of law, that the alleged
defect was too attenuated from Sanchez’s death to constitute
proximate cause.

Indeed, it is hard to believe that the Texas Supreme Court would
hold that delays caused by defects in 9-1-1 technologies are, as a
matter of law, never actionable due to the absence of proximate
cause. C.f. Columbia Med. Ctr. of Las Colinas, Inc. v. Hogue, 271
S.W.3d 238, 246 (Tex. 2008) (considering proximate cause in
context of whether an alleged omission delayed proper treatment);
Bustamante v. Ponte, 529 S.W.3d 447, 456 (Tex. 2017) (same). The
Court therefore rejects Defendants’ argument that, as a matter of
law, Plaintiffs cannot establish proximate cause because the
alleged defects here simply hindered or delayed treatment.

App. 29
allowed 9-1-1 operators to locate Cook “quicker than
the several minutes it actually took.” Id. at 320. Had
location information been instantly transmitted,
plaintiffs argued, Cook’s life would have been spared.
Id.
In dismissing the case for failure to state a claim,
another judge on this Court held that T-Mobile was
immune under Section 771.053(a) because, among
other reasons, any alleged defect in 9-1-1 technology
was not a proximate cause of Cook’s death. Cook v. TMobile USA, Inc., 2015 WL 11120974, at *1 (N.D. Tex.
Sept. 22, 2015) (Solis, J.). The Fifth Circuit affirmed in
an unpublished opinion, specifically highlighting the
intervening factors that made the alleged defect too
attenuated from Cook’s death to constitute proximate
cause. See Cook, 683 F. App’x at 321 (“Plaintiffs alleged
that even after emergency personnel arrived at Cook’s
residence, Cook’s call was not treated as serious[, and]
[t]hey have failed to allege that the emergency
personnel would have reacted differently had they
received Cook’s location sooner.”).
In Kelley v. City of Dallas, this Court again
addressed the issue of whether T-Mobile’s failure to
provide prompt location information from 9-1-1 calls
was the proximate cause of a victim’s death. 2017 WL
3891680, at *1 (N.D. Tex. Aug. 17, 2017) (Toliver, M.J.),
report and recommendation adopted, 2017 WL 3868257
(N.D. Tex. Sept. 5, 2017) (Boyle, J.). The victim, D’Lisa
Kelley, called her sister, screaming, but the call
disconnected. Id. Kelley’s grandmother called 9-1-1 for
assistance. Proper procedures required the dispatcher
to send police officers to Kelley’s home, but in this case,

App. 30
the dispatcher was instructed by a supervisor to send
officers only after T-Mobile “pinged” Kelley’s cellphone
and collected location information. Id. Officers were
never sent to Kelley’s home, and her body was found
several days later. Id. The Court dismissed the claims
against T-Mobile for lack of proximate cause, again
noting that “the intervening factors in the case at bar
arguably result in even more attenuated circumstances
than were present in either Sanchez or Cook.” Id. at *5.
Plaintiffs here allege that Defendants’ failure to
provide proper technologies prevented responders from
providing timely aid, thereby causing Brandon Alex’s
death. (Am. Compl. ¶¶ 40, 45; Pl. Resp. at 10-11).
Similar allegations were held not sufficient in Sanchez,
Cook, and Kelley because the chain of causation was too
attenuated in those cases. Each caller in Sanchez,
Cook, and Kelley connected with the 9-1-1 call center,
but emergency responders did not properly act on the
emergency. Medical personnel never checked on
Sanchez’s apartment. Police officers did not treat
Cook’s 9-1-1 call as serious and left without entering
her home. The police dispatcher was required by Dallas
Police Department’s internal guidelines to send officers
to Kelley’s home, but chose not to do so. Accordingly,
the plaintiffs in each case could not show that “any of
the intervening parties [i.e. the emergency responders]
would have acted differently” even if the 9-1-1
technology worked better or faster as plaintiffs allege
it should have. Cook, 683 F. App’x at 321.
Here, Defendants’ 9-1-1 technology simply did not
work at all. Brandon Alex suffered a medical
catastrophe unrelated to any wrongdoing. His

App. 31
babysitter was placed on hold for more than 40 minutes
and never connected with any emergency responder.
There is no chain of causation to analyze because there
are no intervening factors. If Plaintiffs’ allegations are
proven, Defendants’ defective 9-1-1 technology was a
substantial—if not the only—factor that prevented
Brandon Alex from receiving timely medical aid, and
his death was a foreseeable consequence of the defect.
Accordingly, Plaintiffs have adequately alleged
proximate cause.
2. Gross Negligence, Recklessness,
or Intentional Misconduct
Gross negligence consists of both objective and
subjective elements. See U-Haul Int’l, Inc. v. Waldrip,
380 S.W.3d 118, 137 (Tex. 2012). Plaintiffs must show
that, objectively, “the act or omission involved an
extreme degree of risk, considering the probability and
magnitude of the potential harm to others.” Id.
(citation omitted). Plaintiffs must also show that
Defendants had “actual, subjective awareness of the
risk involved, but nevertheless proceeded with
conscious indifference to the rights, safety, or welfare
of others.”5 Id.
The Amended Complaint describes how Defendants
made a conscious decision not to adopt technology that
would have caused the babysitter’s 9-1-1 call to be
connected. (Am. Compl. ¶¶ 26, 40, 44). It further
5

Similarly, recklessness requires “proof that a party knew the
relevant facts” creating the danger and “did not care about the
result.” See City of San Antonio v. Hartman, 201 S.W.3d 667, 672
(Tex. 2006).

App. 32
describes how Defendants instead used outdated
technology that led to more than three hundred
emergency calls being placed on hold on a single day.
(Id. ¶ 22). Prior to Brandon Alex’s death, the Mayor of
Dallas and various media outlets apparently publicized
that Defendants’ technologies failed to actually connect
callers to the 9-1-1 call center, resulting in many
avoidable deaths. (Id. ¶¶ 22, 27). Plaintiffs thus allege
that Defendants’ failure to adopt new technologies or
fix its existing 9-1-1 telecommunications system
involved an extreme degree of risk, because the system
simply did not work for many callers. Many could not
connect to the 9-1-1 call center at all, as a result of
which Dallas residents, including Brandon Alex,
allegedly did not receive timely medical treatment that
could have prevented their deaths. Plaintiffs further
allege that Defendants knew of this risk, but failed to
take any action. Accordingly, Plaintiffs have plausibly
alleged gross negligence.
Because Plaintiffs have plausibly alleged proximate
cause and gross negligence, the Court does not dismiss
their claims on immunity grounds.6
ii. Violation of the Texas Civil Wiretap Act
To state a claim for a violation of the CWA, a
plaintiff must plausibly allege “(1) that defendants
intercepted or attempted to intercept, (2) by using an

6

Defendants argue that Plaintiffs have failed to allege negligence
and gross negligence claims for the same reasons that statutory
immunity is applicable. Because Plaintiffs have plausibly alleged
sufficient facts to overcome immunity, the Court will not dismiss
Plaintiffs’ negligence and gross negligence claims.

App. 33
electronic, mechanical, or other device, (3) the contents
of [a communication] uttered by plaintiff, (4) without
the consent of at least one party to the communication.”
In re DirecTV, Inc., Cases, 2004 WL 1490092, at *3
(N.D. Tex. July 1, 2004) (Kaplan, M.J.), report and
recommendation adopted sub nom. In re Directv, Inc.,
Cases, 2004 WL 1773562 (N.D. Tex. Aug. 3, 2004)
(Solis, J.); see also TEX. CIV. PRAC. & REM. CODE
§ 123.002(a)(1). Plaintiffs allege that Defendants
T-Mobile US, Inc. and T-Mobile USA, Inc. intercepted
or attempted to intercept Plaintiffs’ “communication
directed to a 9-1-1 public answering point” without
consent. (Am. Compl ¶ 53).
Plaintiffs have failed to plausibly allege the third
element. There are no allegations that Detreasure
Coker or Brandon Alex made any communications. At
most, Brandon Alex’s babysitter, who is not a plaintiff,
attempted to communicate with the 9-1-1 emergency
responders, but failed to do so. (Am. Compl. ¶ 12-13).
Accordingly, Plaintiffs’ CWA claim must be dismissed.
iii.

Products Liability

To state a claim for products liability, a plaintiff
must plausibly allege that: (1) a product has a defect,
rendering it unreasonably dangerous; (2) the product
reached the consumer without substantial change in its
condition from the time of original sale; and (3) the
defective product was the producing cause of the injury
to the user. See Syrie v. Knoll Int’l, 748 F.2d 304, 306
(5th Cir. 1984). Texas law recognizes three different
types of defects: design, manufacturing, and

App. 34
marketing.7 See Romo v. Ford Motor Co., 798 F. Supp.
2d 798, 806 (S.D. Tex. 2011).
According to Defendants, “Plaintiffs do not allege
that the wireless devices were defectively designed,
that a defect resulted from a modification, or that there
was a safer design alternative.” (Def. Mot. at 15).
Plaintiffs allege that the software8 installed on mobile
devices was defectively designed because the software
made “accidental, duplicative or insufficiently
identifiable calls to 9-1-1.” (Am. Compl. ¶¶ 33-35).
Plaintiffs attribute this defect to the software
developed by Defendants or to Defendants’ failure to
guard against third parties tampering with the
software. (See, e.g., ¶ 44c). Plaintiffs then allege that
this defect caused the 9-1-1 telecommunications system
to be congested, leading to calls based on real
emergencies, like the babysitter’s call, to be placed on
hold. (Am. Compl. ¶¶ 33-35 57-59). The fact that a
product that does not work as expected can support a
design defect claim. See Barragan v. Gen. Motors LLC,
2016 WL 3519675, at *4 (W.D. Tex. June 22, 2016)
7

The Amended Complaint does not explicitly refer to Plaintiffs’
theory of product liability. (See Am. Compl. ¶ 56-69). Defendants
argue that Plaintiffs’ allegations are deficient under any theory.
(Def. Br. at 14-15). Plaintiffs respond only that their allegations
are sufficient to state a design defect claim. (Pl. Resp. at 23-24).
The Court construes the pleading as alleging only one products
liability claim—design defect.

8

Although Plaintiffs use a generic term like “software,” their
allegations provide sufficient information to give notice of what is
allegedly defective. Plaintiffs are not required, at this
pre-discovery stage, to identify a product name. Additional
specificity can be obtained through discovery.

App. 35
(finding allegations that a “vehicle’s restraint system
was unable to restrain an occupant in [certain]
situations” was sufficient to state a design defect
claim). The lack of a feature—like protections against
tampering—can also constitute a design defect. See
Flock v. Scripto-Tokai Corp., 319 F.3d 231, 239 (5th
Cir. 2003). Accordingly, the Court concludes that
Plaintiffs plausibly alleged a products liability claim.9
iv.

Violation of the Deceptive Trade
Practices Act

The DTPA prohibits trade practices deemed to be
false, misleading, or deceptive. See TEX. BUS. & COM.
CODE § 17.50(a)(1)-(2). However, in order to recover
under the DTPA, a plaintiff must establish that he or
she is a “consumer” under the statute by showing
(1) that he or she acquired goods or services by
purchase or lease, and (2) that the goods or services
purchased or leased form the basis of the complaint.
McClung v. Wal-Mart, 866 F. Supp. 306, 308 (N.D. Tex.
1994); see also TEX. BUS. & COM. CODE § 17.45(4).
Plaintiffs allege that Brandon Alex was a
“consumer” under the DTPA, but there are no
allegations Brandon Alex purchased or leased any
9

Presumably, the safer, alternative design here is software that
does not make accidental, duplicative, or insufficiently identifiable
calls, and protects against tampering. Plaintiffs do not explicitly
state this in their Amended Complaint. See Rodriguez v. Gilead
Scis., Inc., 2015 WL 236621, at *3 (S.D. Tex. Jan. 16, 2015) (“[A]
safer alternative design is a necessary component to a design
defect claim.”). Plaintiffs are directed to specify the safer,
alternative design in an amended pleading on or before March 12,
2018, to clarify that this is their only products liability claim.

App. 36
goods or services. Furthermore, even if Brandon Alex
had been a consumer, any DTPA claim on behalf of his
Estate must be dismissed because a DTPA claim does
not survive the death of the consumer. See Elmazouni
v. Mylan, Inc., 220 F. Supp. 3d 736, 745 (N.D. Tex.
2016) (Lynn, C.J.) (“Although the Texas Supreme Court
has not decided whether DTPA claims survive the
death of the consumer, and there is no consensus on
that issue among the intermediate state appellate
courts, this Court has previously concluded that DTPA
claims do not survive the death of the consumer.”).
Accordingly, Plaintiffs’ DTPA claim must be dismissed.
v. Derivative Claims
1. Survival
Defendants argue that Plaintiffs do not have the
capacity to bring a survival claim. Generally, only an
Estate’s personal representative has the capacity to
bring a survival claim. Nicholson v. XTO/EXXON
Energy, Inc., 2015 WL 1005338, at *2 (N.D. Tex. Mar.
4, 2015) (Kinkeade, J.). Under certain circumstances,
such as (1) if the heirs can prove there is no
administration pending and none is necessary or
(2) when a familial agreement vitiates the need for an
administration of the estate, then the heirs may be
entitled to sue on behalf of the decedent’s estate. Id.
Detreasure Coker and Bridget Alex, Brandon’s
grandmother, had been engaged in a probate dispute
over who is the Estate’s proper administrator. See In
the Matter of the Estate of Brandon Alex, Deceased, No.
PR-17-01591-1 (Dallas Cty. Prob. Ct. May 3, 2017). The
matter has been resolved and dismissed by settlement.

App. 37
Given this settlement agreement, Detreasure Coker
has plausibly alleged her capacity as Brandon Alex’s
heir to recover under the survival statute.
2. Wrongful Death
Defendants also argue that Plaintiffs do not have
the capacity to bring a wrongful death claim. Only “the
surviving spouse, children, and parents of the
deceased” may bring a claim for wrongful death. TEX.
CIV. PRAC. & REM. CODE § 71.004(b). An estate
therefore may not assert a wrongful death claim on its
own behalf. Furthermore, all persons entitled to
recover under the statute must be a party to the same
suit or the pleading must aver that the action is
brought for the benefit of all of those entitled to
recover. See id.; Avila v. St. Luke’s Lutheran Hosp., 948
S.W.2d 841, 850 (Tex. App. 1997). Detreasure Coker
does allege that the claim is brought for the benefit of
all of those entitled to recover.10 (Am. Compl. ¶ 72).
Accordingly, the Court concludes that Detreasure
Coker has plausibly alleged her capacity to recover
under the wrongful death statute.
10

The Court recognizes that Bridget Alex and Brandon Alex’s
father, Jashawn Alex, have a pending lawsuit before this Court,
also alleging a wrongful death claim for Brandon Alex’s death. See
Bridget Alex v. T-Mobile USA, Inc., No. 3:17-cv-1532-M (N.D. Tex.,
filed June 8, 2017). However, it is not necessary for this present
suit to be brought “with the knowledge and consent of all the
beneficiaries; it is enough that the suit appear to be brought for
their benefit.” Martone v. Livingston, 2015 WL 9259089, at *2 (S.D.
Tex. Dec. 18, 2015). In any event, the Court intends to consolidate
the cases, so any assertion that Bridget Alex and Jashawn Alex
must participate in this suit in order for Detreasure Coker to
recover under the wrongful death statute is moot.

App. 38
III.

Motion for Leave to Amend
a. Legal Standard

Rule 15(a) provides that “[t]he court should freely
give leave [to amend] when justice so requires.” FED. R.
CIV. P 15(a); see also Dussouy v. Gulf Coast Inv. Corp.,
660 F.2d 594, 598 (5th Cir. 1981) (“The policy of the
federal rules is to permit liberal amendment to
facilitate determination of claims on the merits and to
prevent litigation from becoming a technical exercise in
the fine points of pleading.”). Leave to amend should
not be denied unless there is a substantial reason to do
so. See Jacobsen v. Osbourne, 133 F.3d 315, 318 (5th
Cir. 1998). Substantial reasons include “undue delay,
bad faith, dilatory motive on the part of the movant, or
undue prejudice to the non-movant.” Cover Four, L.L.C.
v. Cardiac Sci. Corp., 2007 WL 4245486, at *1 (N.D.
Tex. Dec. 3, 2007).
b. Analysis
There are no apparent substantial reasons to deny
leave to amend, and the Court concludes that the
motion should be granted. Nothing in the record
suggests bad faith or a dilatory motive on Plaintiffs’
part. Allowing Plaintiffs to amend would not materially
prejudice Defendants because the case has been stayed,
and the Court has not yet issued a scheduling order.
Indeed, courts typically grant leave to amend “unless
the defect is simply incurable or the plaintiff has failed
to plead with particularity after being afforded
repeated opportunities to do so.” Hart v. Bayer Corp.,
199 F.3d 239, 247 n.6 (5th Cir. 2000).

App. 39
However, the Court makes two observations. First,
Plaintiffs’ proposed pleading does not address all of the
defects identified in this Order. For example, Plaintiffs
do not make any material changes to the allegations
underlying their DTPA and CWA claims. Plaintiffs
thus must further amend their pleading to plausibly
allege those claims. Second, the proposed pleading
includes claims against the City of Dallas. The Court
denied joinder of the City, and all claims asserted
against the City were dismissed without prejudice.
(ECF No. 34).
IV. Conclusion
For the reasons stated above, the Motion to Dismiss
is GRANTED IN PART and DENIED IN PART, and
the Motion for Leave is GRANTED. Plaintiffs’ DTPA
and CWA claims are DISMISSED WITHOUT
PREJUDICE. Plaintiffs have leave to amend their
pleading, addressing those defects identified in this
Order that are curable, by March 12, 2018.
Because the Court’s November 20, 2017, Order
stayed the case pending the resolution of Defendants’
Motion to Dismiss, (ECF No. 23), the stay is therefore
LIFTED. The parties are directed to confer and submit
a revised joint proposal for the contents of a scheduling
order, by March 22, 2018.
SO ORDERED.
March 1, 2018.
/s/ Barbara M. G. Lynn
BARBARA M. G. LYNN
CHIEF JUDGE

App. 40

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
DALLAS DIVISION
Civil Action No. 3:17-cv-01532-M
[Filed: February 9, 2018]
_______________________________________
BRIDGET ALEX, individually and on
)
behalf of the ESTATE OF BRANDON
)
ALEX, and JASHAWN ALEX,
)
)
Plaintiffs,
)
)
v.
)
)
T-MOBILE USA, INC., T-MOBILE US, )
INC., formerly known as MetroPCS
)
Communications, Inc., and METROPCS )
MIDWAY RD.,
)
)
Defendants.
)
_______________________________________)
MEMORANDUM OPINION AND ORDER
Before the Court is T-Mobile USA, Inc. and
T-Mobile US, Inc.’s Motion for Judgment on the
Pleadings, (ECF No. 8), and Motion for Leave to File
Notice of Subsequent History, (ECF No. 22). For the
reasons stated below, the Motion for Leave is

App. 41
GRANTED, and the Motion for Judgment on the
Pleadings is GRANTED IN PART and DENIED IN
PART.
I. Factual and Procedural Background
On March 11, 2017, Brandon Alex was injured when
he “rolled off the daybed and onto the floor.” (Original
Pet. ¶ 27, ECF No. 1). Michelle Cohen, his babysitter,
found him “grasping and barely breathing.” (Id.) Ms.
Cohen repeatedly dialed 9-1-1 from her cellphone, but
was placed on hold each time. (Id. ¶ 28). Collectively,
Ms. Cohen was placed on hold for more than forty
minutes. (Id.) Unable to connect to the 9-1-1
dispatcher, Ms. Cohen contacted Brandon Alex’s
mother, Bridget Alex, who later drove him to an
emergency room. (Id. ¶¶ 31, 76). Unfortunately,
Brandon Alex was pronounced dead on arrival at the
hospital. (Id.)
Brandon Alex’s parents, Jashawn and Bridget Alex,
instituted this action in the 101st Judicial District,
Court of Dallas County, Texas, against T-Mobile USA,
Inc. and T-Mobile US, Inc. (collectively, “T-Mobile”) and
MetroPCS Midway Rd. Plaintiffs allege that had
T-Mobile’s 9-1-1 “services, software, products, and
technology . . . worked as required,” Brandon Alex
would have received timely medical assistance and
survived. (Original Pet. ¶ 34). Their claims include
strict liability, negligence, gross negligence, breach of
express and implied warranties, violations of the Texas
Deceptive Trade Practices Act (“DTPA”), and
misrepresentation. (Id. ¶¶ 36-70). Plaintiffs also
derivatively allege wrongful death, survival, and
bystander claims. (Id. ¶¶ 71-82). T-Mobile removed the

App. 42
case to this Court, and the case has been stayed
pending the Court’s resolution of T-Mobile’s Motion for
Judgment on the Pleadings. (ECF No. 21).
II. Legal Standard
A party may move for judgment on the pleadings
after the pleadings are closed and when doing so would
not delay trial. FED. R. CIV. P. 12(c). A motion brought
pursuant to Rule 12(c) is designed to dispose of cases
where “the material facts are not in dispute and a
judgment on the merits can be rendered by looking to
the substance of the pleadings and any judicially
noticed facts.” Great Plains Trust Co. v. Morgan
Stanley Dean Witter & Co., 313 F.3d 305, 312 (5th Cir.
2002). The standard of review for a Rule 12(c) motion
is the same as for a Rule 12(b)(6) motion to dismiss for
failure to state a claim. See Johnson v. Teva Pharm.
USA, Inc., 758 F.3d 605, 610 (5th Cir. 2014). To avoid
dismissal, a plaintiff must plead sufficient facts to state
a claim for relief that is “plausible on its face.”
Gentilello v. Rege, 627 F.3d 540, 544 (5th Cir. 2010).
The court must accept all of the plaintiff’s factual
allegations as true, but it is not bound to accept as true
“a legal conclusion couched as a factual allegation.” Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555 (2007). Where
the facts do not permit the court to infer more than the
mere possibility of misconduct, the complaint has
stopped short of showing that the plaintiff is plausibly
entitled to relief. Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009).

App. 43
III.

Motion for Leave
Subsequent History

to

File

Notice

of

T-Mobile moves for leave to file notice that the
Supreme Court denied certiorari review of Cook v. City
of Dallas, 683 F. App’x 315 (5th Cir. 2017). The Motion
is GRANTED. The Supreme Court’s denial of
certiorari review “is not subject to reasonable dispute”
and is relevant to the Court’s resolution of T-Mobile’s
Motion for Judgment on the Pleadings. See FED. R. CIV.
P. 201.
IV.

Motion for Judgment on the Pleadings
a. Statutory Immunity

Under Texas law, wireless service providers and
manufacturers have some statutory immunity from
claims arising out of their provision of 9-1-1 services
under Section 771.053(a) of the Texas Health and
Safety Code, which states:
A service provider of communications service
involved in providing 9-1-1 service, a
manufacturer of equipment used in providing
9-1-1 service, [or] a developer of software used in
providing 9-1-1 service . . . is not liable for any
claim, damage, or loss arising from the provision
of 9-1-1 service unless the act or omission
proximately causing the claim, damage, or loss
constitutes gross negligence, recklessness, or
intentional misconduct.
Accordingly, to qualify for statutory immunity,
T-Mobile must be one of the listed entities involved in

App. 44
providing 9-1-1 services, and the claims against it must
arise from its provision of 9-1-1 services.
T-Mobile meets both conditions. Plaintiffs allege
that T-Mobile operates 9-1-1 communications services,
(Original Pet. ¶¶ 13-15), and provides 9-1-1 capable
cellphones, (id. ¶ 49), and that their claims arise from
T-Mobile’s provision of 9-1-1 services. (See, e.g., id. ¶ 34
(“[I]f the Defendants’ services, software, products and
technology had worked as required, BRANDON ALEX
would have received timely police and/or EMT
assistance.”)). However, the statutory immunity
provided by Section 771.053(a) is not absolute. To
overcome T-Mobile’s immunity, Plaintiffs must
plausibly allege that T-Mobile proximately caused
Brandon Alex’s death and that T-Mobile’s acts or
omissions constituted gross negligence, recklessness, or
intentional misconduct. Cook, 683 F. App’x at 319
(citing TEX. HEALTH & SAFETY CODE § 771.053(a)).
Because Plaintiffs have plausibly alleged proximate
cause and gross negligence, for the reasons discussed
below, the Court does not dismiss their claims on
immunity grounds.
i. Proximate Cause
The components of proximate cause are cause in
fact and foreseeability. See Ryder Integrated Logistics,
Inc. v. Fayette Cty., 453 S.W.3d 922, 929 (Tex. 2015)
(citation omitted). A tortious act or omission is a cause
in fact if it serves as “a substantial factor in causing
the injury and without which the injury would not have
occurred.” Del Lago Partners, Inc. v. Smith, 307 S.W.3d
762, 774 (Tex. 2010). An injury is foreseeable “if, in
light of all the circumstances, a reasonably prudent

App. 45
man would have anticipated that the injury would be
a consequence of the act or omission in question.” Hall
v. Atchison, T. & S. F. Ry. Co., 504 F.2d 380, 385 (5th
Cir. 1974). Proximate cause cannot be established by
“mere conjecture, guess, or speculation.” HMC Hotel
Props. II Ltd. P’ship v. Keystone-Texas Prop. Holding
Corp., 439 S.W.3d 910, 913 (Tex. 2014).
The case of City of Dallas v. Sanchez is instructive
on what constitutes proximate cause in a circumstance
similar to the one presented here. 494 S.W.3d 722 (Tex.
2016). In Sanchez, 9-1-1 dispatchers received two calls
within ten minutes of each other. Id. at 725. Both
calls—from two different callers—originated from the
same apartment complex, and both requested
assistance with a drug overdose victim. Id. After the
dispatcher informed the person calling on behalf of
Matthew Sanchez that emergency responders were on
route, the call was disconnected. Id. Once responders
arrived at the apartment complex, “they erroneously
concluded that the two 9–1–1 calls were redundant and
that a single individual was the subject of both calls.”
Id. Responders ultimately never went to the apartment
of Sanchez, who died six hours later. Id. Sanchez’s
parents sued the City of Dallas, alleging that the 9-1-1
call was disconnected as a result of a defect in the
City’s phone system. Id. They alleged that their son
would have received life-saving medical care but for
this defect, which prevented responders from having
sufficient information to correctly differentiate the two
calls. Id.
The key issue before the Texas Supreme Court was
whether the plaintiffs had adequately alleged, to

App. 46
survive a motion to dismiss, that a defective 9-1-1
system proximately caused Sanchez’s death.1 Sanchez,
494 S.W.3d at 726. The court held that due to
intervening factors, Plaintiffs could not establish
proximate cause. See id. at 728 (The death was caused
by “drugs, the passage of time, and misinterpretation
of information [by the emergency responders],” and the
alleged malfunction was merely one of a “series of
factors that contributed to Sanchez not receiving timely
medical assistance.”); id. at 727-28 (“Between the
alleged malfunction and Sanchez’s death, emergency
responders erroneously concluded separate 9–1–1 calls
were redundant and left the apartment complex
without checking the specific apartment unit the
dispatcher had provided to them.”). Accordingly, the
court held that immunity applied.2

1

This issue came up in the following way. The City argued that
governmental immunity protected it from liability. Sanchez, 494
S.W.3d at 725. The plaintiffs argued that immunity was waived
under the Texas Tort Claims Act (“TTCA”), TEX. CIV. PRAC. & REM.
CODE § 101.021. For immunity to be waived under the TTCA,
“personal injury or death must be proximately caused by a
condition or use of tangible personal or real property.” Dallas Cty.
Mental Health & Mental Retardation v. Bossley, 968 S.W.2d 339,
342–43 (Tex. 1998) (emphasis added). The City argued that
immunity applied because Sanchez’s death was caused by a drug
overdose, not the 9-1-1 system. Sanchez, 494 S.W.3d at 725. Thus,
although it was not addressing Section 771.053(a), Sanchez was
addressing proximate cause in a similar factual context.
2

The Texas Supreme Court also noted that “the use of property
that simply hinders or delays treatment does not ‘actually cause[]
the injury’ and does not constitute a proximate cause of an injury.”
Sanchez, 494 S.W.3d at 727. The statement is dictum because the
court’s actual analysis does not rely on this statement. As

App. 47
The Fifth Circuit, in an unpublished opinion,
reached a similar conclusion. In Cook, the victim,
Deanna Cook, called 9-1-1 from her cellphone while an
intruder was attacking her inside her home. 683 F.
App’x at 317. Location-tracking technology sent Cook’s
location to the 9-1-1 dispatcher “within several
minutes” of the call. Id. “Nearly fifty minutes after
Cook placed her 9-1-1 call, police officers arrived at
Cook’s home.” Id. However, the officers only inspected
the outside of Cook’s home and “left without entering
the residence.” Id. Cook’s family found her body two
days later. Id. Members of Cook’s family filed suit
against T-Mobile, alleging that it failed to implement
proper location-tracking that would have allowed 9-1-1
operators to locate Cook “quicker than the several
minutes it actually took.” Id. at 320. Had location

discussed, the court found that, as a matter of law, the alleged
defect was too attenuated from Sanchez’s death to constitute
proximate cause.
Indeed, it is hard to believe that the Texas Supreme Court would
hold that delays caused by defects in 9-1-1 technologies are never
actionable, as a matter of law, due to the absence of proximate
cause. C.f. Columbia Med. Ctr. of Las Colinas, Inc. v. Hogue, 271
S.W.3d 238, 246 (Tex. 2008) (considering proximate cause in
context of whether an alleged omission delayed proper treatment);
Bustamante v. Ponte, 529 S.W.3d 447, 456 (Tex. 2017) (same); see
also Dusek v. State, 978 S.W.2d 129, 133 (Tex. App. 1998) (holding
evidence insufficient to support injury-to-child conviction because
child’s broken leg treated same day as injury and no evidence
treatment was delayed or recovery hindered by treatment timing).
The Court therefore rejects T-Mobile’s argument that, as a matter
of law, Plaintiffs cannot establish proximate cause because the
alleged defects here simply hindered or delayed treatment.

App. 48
information been instantly transmitted, plaintiffs
argued, Cook’s life would have been spared. Id.
In dismissing the case for failure to state a claim,
another judge on this Court held that T-Mobile was
immune under Section 771.053(a) because, among
other reasons, any alleged defect in 9-1-1 technology
was not a proximate cause of Cook’s death. Cook v. TMobile USA, Inc., 2015 WL 11120974, at *1 (N.D. Tex.
Sept. 22, 2015) (Solis, J.). The Fifth Circuit affirmed in
an unpublished opinion, specifically highlighting the
intervening factors that made the alleged defect too
attenuated from Cook’s death to constitute proximate
cause. See Cook, 683 F. App’x at 321 (“Plaintiffs alleged
that even after emergency personnel arrived at Cook’s
residence, Cook’s “call was not treated as serious[, and]
[t]hey have failed to allege that the emergency
personnel would have reacted differently had they
received Cook’s location sooner.”).
In Kelley v. City of Dallas, this Court again
addressed the issue of whether T-Mobile’s failure to
provide prompt location information from 9-1-1 calls
was the proximate cause of a victim’s death. 2017 WL
3891680, at *1 (N.D. Tex. Aug. 17, 2017) (Toliver, M.J.),
report and recommendation adopted, 2017 WL 3868257
(N.D. Tex. Sept. 5, 2017) (Boyle, J.). The victim, D’Lisa
Kelley, called her sister, screaming, but the call
disconnected. Id. Kelley’s grandmother called 9-1-1 for
assistance. Proper procedures required the dispatcher
to send police officers to Kelley’s home, but in this case,
the dispatcher was instructed by a supervisor to send
officers only after T-Mobile “pinged” Kelley’s cellphone
and collected location information. Id. Officers were

App. 49
never sent to Kelley’s home. Id. Her body was found
several days later. Id. The Court dismissed the claims
against T-Mobile for lack of proximate cause, again
noting that “the intervening factors in the case at bar
arguably result in even more attenuated circumstances
than were present in either Sanchez or Cook.” Id. at *5.
Plaintiffs here allege that T-Mobile’s failure to
provide proper hardware and software led to Ms.
Cohen’s 9-1-1 call being placed on hold. (Original Pet.
¶ 53). They also allege that T-Mobile failed to
implement proper location-tracking technology that
would have sent Ms. Cohen’s call location to emergency
responders. (Id. ¶ 42). These failures, according to
Plaintiffs, prevented responders from providing timely
aid, thereby causing Brandon Alex’s death. (Id. ¶ 34).
These allegations, if proven, would be sufficient to
establish proximate cause. Plaintiffs allege that
T-Mobile’s alleged defects were a substantial, if not the
only, factor in causing Brandon Alex’s death, and that
his death was a foreseeable consequence of those
defects. The allegations were held not sufficient in
Sanchez, Cook, and Kelley because the chain of
causation was too attenuated in those cases. Each
caller in Sanchez, Cook, and Kelley connected with the
9-1-1 call center, but emergency responders did not
properly act on the emergency. Medical personnel
never checked on Sanchez’s apartment. Police officers
did not treat Cook’s 9-1-1 call as serious and left
without entering her home. The police dispatcher was
required by Dallas Police Department’s internal
guidelines to send officers to Kelley’s home, but chose
not to do so. Accordingly, the plaintiffs in each case
could not show that “any of the intervening parties

App. 50
would have acted differently” even if the 9-1-1
technology worked better or faster as plaintiffs allege
it should have. Cook, 683 F. App’x at 321.
That is not the circumstance in this case. T-Mobile’s
9-1-1 technology simply did not work at all. Ms. Cohen
was placed on hold for more than 40 minutes and never
connected with the 9-1-1 call center. There is no chain
of causation to analyze because there are no
intervening factors. If Plaintiffs’ allegations are proven,
T-Mobile’s defective 9-1-1 technology was the only
factor that prevented Brandon Alex from receiving
timely medical aid. Accordingly, Plaintiffs have
adequately alleged proximate cause.
ii. Gross Negligence, Recklessness, or
Intentional Misconduct
Gross negligence consists of both objective and
subjective elements. See U-Haul Int’l, Inc. v. Waldrip,
380 S.W.3d 118, 137 (Tex. 2012). Plaintiffs must show
that, objectively, “the act or omission involved an
extreme degree of risk, considering the probability and
magnitude of the potential harm to others.” Id.
(citation omitted). Plaintiffs must also show that
T-Mobile had “actual, subjective awareness of the risk
involved, but nevertheless proceeded with conscious
indifference to the rights, safety, or welfare of others.”3
Id.

3

Similarly, recklessness requires “proof that a party knew the
relevant facts” creating the danger and “did not care about the
result.” See City of San Antonio v. Hartman, 201 S.W.3d 667, 672
(Tex. 2006).

App. 51
The Original Petition describes how T-Mobile made
a conscious decision not to adopt technology that would
have allowed Ms. Cohen’s 9-1-1 call to be connected
within a reasonable time, or that would have physically
located her cellphone when she dialed 9-1-1. (Original
Pet. ¶¶ 22-26, 42, 52). It further describes how
T-Mobile instead continued to use outdated technology
that led to hundreds of emergency calls being placed on
hold. (Id. ¶ 25). The Mayor of Dallas apparently
repeatedly warned that T-Mobile’s technologies failed
to actually connect callers to the 9-1-1 call center,
resulting in many avoidable deaths. (Id. ¶¶ 26, 52, 53).
Taken as true, Plaintiffs allege that T-Mobile’s failure
to adopt new technologies or fix its existing 9-1-1
telecommunications system involved an extreme degree
of risk because the system simply did not work for
many callers; they could not connect to the 9-1-1 call
center at all. Plaintiffs further allege that T-Mobile
knew of this risk, but failed to take any action.
Accordingly, Plaintiffs have plausibly alleged gross
negligence.
Because Plaintiffs have plausibly alleged
proximate cause and gross negligence, the Court does
not dismiss their claims on immunity grounds.4

4

T-Mobile argues that Plaintiffs have failed to allege negligence
and gross negligence claims for the same reasons that statutory
immunity is applicable. Because Plaintiffs have plausibly alleged
sufficient facts to overcome immunity, the Court will not dismiss
Plaintiffs’ negligence and gross negligence claims.

App. 52
b. Strict Liability
To state a claim for strict products liability, a
plaintiff must plausibly allege that: (1) a product has a
defect rendering it unreasonably dangerous; (2) the
product reached the consumer without substantial
change in its condition from the time of original sale;
and (3) the defective product was the producing cause
of the injury to the user. Syrie v. Knoll Int’l, 748 F.2d
304, 306 (5th Cir. 1984). Unreasonably dangerous
means dangerous “to an extent beyond that which
would be contemplated by the ordinary user of the
product, with the ordinary knowledge common to the
community as to the product’s characteristics.” Id.
T-Mobile argues that Plaintiffs have failed to
plausibly allege the first element. Plaintiffs must
“identify a specific product” that is allegedly defective.
Del Castillo v. PMI Holdings N. Am. Inc., 2016 WL
3745953, at *16 (S.D. Tex. July 13, 2016). Identifying
a product in “vague, generic, and collective terms” is
not sufficient. Id. (dismissing strict liability claim
where plaintiffs complained of a “quick shut-off valve,”
which was a “generic term” and could refer to “any one
of hundreds of valves”). Here, Plaintiffs identify as
defective T-Mobile’s “telecommunications technology”
which connects calls from its cellphones to a 9-1-1 call
center. (Original Pet. ¶¶ 37-40). Although Plaintiffs use
a generic term like “technology,” their allegations
provide sufficient information to give notice of what is
allegedly defective. There is no requirement, at this
stage, for Plaintiffs to identify a product name, which
may or may not be public information. Additional
specificity can be obtained through discovery.

App. 53
Accordingly, the Court concludes that Plaintiffs
plausibly allege a strict liability claim.5
T-Mobile can only be strictly liable for its defective
products, not services. See First Nat. Bank of Hot
Springs v. Tex Sun Beechcraft, Inc., 1992 WL 86624, at
*4 (Tex. App. Apr. 29, 1992). To the extent Plaintiffs
mean their strict liability claim to be based on allegedly
defective services, the claim must be dismissed.
c. Breach of Express Warranties
To state a claim for breach of an express warranty,
a plaintiff-buyer must plausibly allege that (1) the
defendant-seller made an express affirmation of fact or
promise relating to the goods; (2) that affirmation or
promise became part of the bargain; (3) the plaintiff
relied upon that affirmation or promise; (4) the goods
did not comply with the affirmation or promise; (5) the
plaintiff was damaged by the noncompliance; and
(6) the failure of the product to comply was the
proximate cause of the plaintiff’s injury. See Omni
USA, Inc. v. Parker-Hannifin Corp., 964 F. Supp. 2d

5

T-Mobile also argues that Plaintiffs have failed to allege that any
of its products are unreasonably dangerous. True, the fact that
T-Mobile might have designed “a better, safer product” does not
necessarily mean that the product it did design was unreasonably
dangerous. See Daberko v. Heil Co., 681 F.2d 445, 448 (5th Cir.
1982). However, Plaintiffs further add that Defendants’ products
allegedly did not operate properly with the 9-1-1 call center,
leading to “hundreds of unanswered [9-1-1] calls” and people being
placed on hold for more than 20 minutes at a time. (Original Pet.
¶¶ 23, 25-26, 39). This is enough to allege that T-Mobile products
are unreasonably dangerous.

App. 54
805, 814 (S.D. Tex. 2013). Furthermore, privity is
required between the plaintiff and the defendant.
T-Mobile argues that Plaintiffs have failed to
plausibly allege privity. Plaintiffs argue that T-Mobile
breached express warranties that the cellphone6
purchased by Bridget Alex was “reliable and of a
quality that rendered [it] suitable for [its] intended use,
including in emergency situations requiring the caller
to be located quickly.”7 (Original Pet. ¶ 60). Plaintiffs,
however, do not allege that Bridget Alex’s phone did
not comply with any warranty. They allege that Ms.
Cohen’s phone failed to satisfy the warranty on it, but
nothing in the pleading suggests that any Plaintiff
purchased or owned Ms. Cohen’s phone. See also
Elsholtz v. Taser Int’l, Inc., 2007 WL 2781664, at *5
(N.D. Tex. Sept. 25, 2007) (“[Plaintiff’s]
express-warranty claim is unavailing inasmuch as she
was not the purchaser of [defendant’s] product, and

6

The Original Petition vaguely refers to “telecommunications
technology, software and/or mobile device services or products.”
(Original Pet. ¶ 60). However, in their briefs, Plaintiffs narrow
their allegations to mobile devices. (See Pl. Resp. at 19, ECF No.
12). Plaintiffs are directed to specify the particular device in an
amended pleading.
7

T-Mobile argues that this is not an affirmation of fact necessary
to create an express warranty. See Bill & Jo Deane Bradford
Investments, Inc. v. Cutter Aviation San Antonio, Inc., 2005 WL
3161083, at *2 (Tex. App. Nov. 23, 2005) (“In this case, [plaintiff]
relies on statements that the [defendant’s] engine was ‘good, safe
and reliable.’ These statements amount to mere opinion or
puffing.”). However, the statement that a phone will allow the
caller to be physically located in 9-1-1 calls is an affirmation of fact
that could constitute an express warranty.

App. 55
therefore no privity exist.”). Accordingly, Plaintiffs’
claim for breach of express warranty on either
cellphone must be dismissed.
d. Breach of Implied
Merchantability

Warranty

of

To state a claim for breach of implied warranty of
merchantability, a plaintiff must plausibly allege “a
defect in the condition of the goods that renders them
unfit for the ordinary purposes for which they are
used.” Strauss v. Ford Motor Co., 439 F. Supp. 2d 680,
685 (N.D. Tex. 2006) (citation omitted). Privity is not
required. Garcia v. Texas Instruments, Inc., 610 S.W.2d
456, 465 (Tex. 1980). Plaintiffs allege that the
cellphone8 sold to Ms. Cohen was defective because it
did not allow for location tracking during 9-1-1 calls.
(Original Pet. ¶ 60). What constitutes an ordinary
purpose of cellphones is a question of fact, and the
Court finds that Plaintiffs have thus plausibly alleged
a claim for breach of implied warranty of
merchantability.

8

Again, the Original Petition vaguely refers to
“telecommunications technology, software and/or mobile device
services or products.” (Original Pet. ¶ 60). However, in their briefs,
Plaintiffs narrow their allegations to mobile devices. (See Pl. Resp.
at 19). Indeed, T-Mobile’s services are not even actionable. See,
e.g., Sw. Bell Tel. Co. v. FDP Corp., 811 S.W.2d 572, 574 (Tex.
1991). Plaintiffs are directed to specify the particular device in an
amended pleading.

App. 56
e. Violations of
Practices Act

the

Deceptive

Trade

The DTPA prohibits trade practices deemed to be
false, misleading, or deceptive. See TEX. BUS. & COM.
CODE § 17.50(a)(1)-(2). However, in order to recover
under the DTPA, a plaintiff must establish that he or
she is a “consumer” under the statute by showing
(1) that he or she acquired goods or services by
purchase or lease, and (2) that the goods or services
purchased or leased form the basis of the complaint.
McClung v. Wal-Mart, 866 F. Supp. 306, 308 (N.D. Tex.
1994); see also TEX. BUS. & COM. CODE § 17.45(4).
Plaintiffs are not “consumers” under the DTPA.
There are no allegations that Jashawn Alex purchased
any of T-Mobile’s goods or services. Bridget Alex
allegedly purchased T-Mobile’s cellphone and service,
but her claims do not arise from them. The basis of the
Original Petition is the alleged defects and
misrepresentations related to Ms. Cohen’s cellphone
and service. Again, nothing in the Original Petition
suggests that any Plaintiffs purchased Ms. Cohen’s
cellphone or service.
Furthermore, even if Brandon Alex had been a
consumer, any DTPA claim on behalf of his Estate
must be dismissed because a DTPA claim does not
survive the death of the consumer. DTPA. See
Elmazouni v. Mylan, Inc., 220 F. Supp. 3d 736, 745
(N.D. Tex. 2016) (Lynn, C.J.) (“Although the Texas
Supreme Court has not decided whether DTPA claims
survive the death of the consumer, and there is no
consensus on that issue among the intermediate state
appellate courts, this Court has previously concluded

App. 57
that DTPA claims do not survive the death of the
consumer.”). Accordingly, Plaintiffs’ DTPA claims must
be dismissed.
f. Misrepresentation
The Original Petition is unclear as to whether
Pl a i n t i f f s b r i n g a c l a i m f o r n e g l i ge n t
misrepresentation, fraudulent misrepresentation, or
both.9 Regardless of the particular claim, Federal Rule
of Civil Procedure 9(b) requires allegations of “fraud or
mistake” to be “state[d] with particularity. At a
minimum, Plaintiffs must “specify the statements
contended to be fraudulent, identify the speaker, state
when and where the statements were made, and
explain why the statements were fraudulent.” Flaherty
& Crumrine Preferred Income Fund, Inc. v. TXU Corp.,
565 F.3d 200, 207 (5th Cir. 2009) (citation omitted).
T-Mobile allegedly and falsely represented that its
products and services “are reliable and of a quality that
rendered them suitable for their intended use,
including in emergency situations requiring the caller
to be located quickly,” and that its “technology is state
of the art and that the safety of [its] customers is
paramount.” (Original Pet. ¶ 68). For the former,
Plaintiffs do not identify the speaker nor state when
and where the statements were made. For the latter,
the Court finds that the representation is not an
actionable statement of fact. See Deburro v. Apple, Inc.,
9

In their briefs, Plaintiffs aver that they only seek recovery for
negligent misrepresentation. (See Pl. Resp. at 22). Plaintiffs are
directed to specify their claim is for negligent misrepresentation,
not fraud, in an amended pleading.

App. 58
2013 WL 5917665, at *4 (W.D. Tex. Oct. 31, 2013)
(“Many of the representations identified by Plaintiffs
are mere puffery, incapable of being labeled true or
false (e.g., ‘state of the art,’ ‘breakthrough’).”).
Accordingly, Plaintiffs’ misrepresentation claim must
be dismissed.
g. Derivative Claims
i. Bystander
In Texas, bystanders may recover damages for
mental anguish suffered as a result of witnessing a
serious or fatal accident involving a close family
member. A bystander plaintiff must establish that:
(1) the plaintiff was located near the scene of the
accident; (2) the plaintiff suffered shock as a result of
a direct emotional impact upon the plaintiff from a
sensory and contemporaneous observation of the
accident, as opposed to learning of the accident from
others after its occurrence; and (3) the plaintiff and
victim were closely related. See United Servs. Auto
Ass’n v. Keith, 970 S.W.2d 540, 541–42 (Tex. 1998); see
also Rodriguez v. Riddell Sports, Inc., 242 F.3d 567,
578 (5th Cir. 2001). Some lower courts have held that
“actual observance of the accident is not required if
there is otherwise an experiential perception of it,” but
they still require that the plaintiff not learn of the
accident from others after its occurrence. See, e.g.,
Landreth v. Reed, 570 S.W.2d 486, 490 (Tex. App.
1978).
Bridget Alex asserts a claim for bystander recovery,
but she did not witness Brandon Alex’s accident. (See
Original Pet. ¶¶ 31, 72). She learned of the accident

App. 59
from Ms. Cohen. (Id.) Only then did she drive home
and later take Brandon Alex to the emergency room.
Because Bridget Alex did not witness the accident and
instead learned of the accident from another person,
she cannot recover as a bystander.10
ii. Survival
T-Mobile argues that Plaintiffs do not have the
capacity to bring a survival claim. Generally, only the
estate’s personal representative has the capacity to
bring a survival claim. Nicholson v. XTO/EXXON
Energy, Inc., 2015 WL 1005338, at *2 (N.D. Tex. Mar.
4, 2015) (Kinkeade, J.). Under certain circumstances,
such as (1) if the heirs can prove there is no
administration pending and none is necessary or
(2) when a familial agreement vitiates the need for an
administration of the estate, then the heirs may be
entitled to sue on behalf of the decedent’s estate. Id.
Bridget Alex and Detreasure Coker, Brandon’s
alleged biological mother, had been engaged in a

10

The Texas Supreme Court’s decision in United Services Auto.
Ass’n v. Keith is analogous. 970 S.W.2d at 542. In Keith, Dianna
Keith arrived on the scene of her daughter’s car accident and heard
the “scary noises” her daughter was making due to her injuries. Id.
at 541. Keith watched as emergency responders removed her
daughter from the car; she then accompanied her daughter in the
ambulance to the hospital. Id. Despite Keith being a witness to her
daughter’s pain and suffering that resulted from the accident, the
court denied the bystander claim. Id. at 542 (“Texas law still
requires the bystander’s presence when the injury occurred and
the contemporaneous perception of the accident.”). Accordingly, in
Texas, plaintiffs cannot recover even where the observation of the
effects of the injury creates an emotional impact.

App. 60
probate dispute over who is the Estate’s proper
administrator. See In the Matter of the Estate of
Brandon Alex, Deceased, No. PR-17-01591-1 (Dallas
Cty. Prob. Ct. May 3, 2017). The matter has been
resolved and dismissed by settlement. (See Not. at 1,
ECF No. 25). Plaintiffs further allege that the Estate
“has no debts and no administration upon the estate is
pending and none is necessary or desired by those
interested in the estate.” (Original Pet. ¶ 5).
Accordingly, Plaintiffs have plausibly alleged their
capacity as Brandon Alex’s heirs to recover under the
survival statute.
iii.

Wrongful Death

T-Mobile also argues that Plaintiffs do not have the
capacity to bring a wrongful death claim. Only “the
surviving spouse, children, and parents of the
deceased” may bring a claim for wrongful death. TEX.
CIV. PRAC. & REM. CODE § 71.004(b). An estate
therefore may not assert a wrongful death claim on its
own behalf. Furthermore, all persons entitled to
recover under the statute must be a party to the same
suit or the pleading must aver that the action is
brought for the benefit of all of those entitled to
recover. See id.; Avila v. St. Luke’s Lutheran Hosp., 948
S.W.2d 841, 850 (Tex. App. 1997). Jashawn Alex and
Bridget Alex do allege that the claim is brought for the
benefit of all of those entitled to recover.11 (Original
11

The Court recognizes that Detreasure Coker has a pending
lawsuit before this Court, also alleging a wrongful death claim for
the death of Brandon Alex. See Estate of Brandon Alex v. T-Mobile
US, Inc., No. 3:17-cv-2622-M (N.D. Tex. Oct. 16, 2017). However,
it is not necessary for this present suit to be brought “with the

App. 61
Pet. ¶ 76). Accordingly, the Court concludes that
Plaintiffs plausibly allege a wrongful death claim.
V. Conclusion
For the reasons stated above, the Motion for
Judgment on the Pleadings is GRANTED IN PART
and DENIED IN PART, and the Motion for Leave is
GRANTED. Plaintiffs’ breach of express warranty,
misrepresentation, DTPA, and bystander claims are
DISMISSED WITHOUT PREJUDICE. Plaintiffs
have leave to amend their pleading, addressing those
defects identified in this Order that are curable, by
March 1, 2018. See also Hart v. Bayer Corp., 199 F.3d
239, 248 n.6 (5th Cir. 2000) (“Although a court may
dismiss the claim, it should not do so without granting
leave to amend, unless the defect is simply incurable.”).
Because the Court’s November 2, 2017, Order
stayed the case pending the resolution of T-Mobile’s
Motion for Judgment on the Pleadings, (ECF No. 21),
the stay is therefore LIFTED. The parties are directed
to confer and submit a revised joint proposal for the
contents of a scheduling order, by March 8, 2018.
SO ORDERED.

knowledge and consent of all the beneficiaries; it is enough that
the suit appear to be brought for their benefit.” Martone v.
Livingston, 2015 WL 9259089, at *2 (S.D. Tex. Dec. 18, 2015). In
any event, the Court intends to consolidate Ms. Coker’s suit with
this one, so any assertion that Ms. Coker must participate in this
suit in order for Plaintiffs to recover under the wrongful death
statute is moot.

App. 62
February 9, 2018.
/s/ Barbara M. G. Lynn
BARBARA M. G. LYNN
CHIEF JUDGE

App. 63

APPENDIX G
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10878
[Filed: April 9, 2020]
__________________________________________
BRIDGET ALE X, Individually and on
)
behalf of the Estate of Brandon Alex;
)
JASHAWN ALEX; MICHAELLE COHEN;
)
ESTATE OF BRANDON ALEX;
)
DETREASURE COKER,
)
)
Plaintiffs-Appellants
)
)
v.
)
)
T-MOBILE USA, INCORPORATED;
)
T-MOBILE US INCORPORATED,
)
formerly known as MetroPCS
)
Communications Incorporated; METROPCS )
MIDWAY RD; DEUTSCHE TELEKOM
)
NORTH AMERICA I NCORPORATED;
)
T-SYSTEMS NORTH AMERICA
)
INCORPORATED,
)
)
Defendants-Appellees
)
__________________________________________ )

App. 64
__________________________________________
ESTATE OF BRANDON ALEX, through
)
personal representative Detreasure
)
Coker; DETREASURE COKER, individually )
and as surviving mother of Brandon Alex,
)
deceased
)
)
Plaintiffs-Appellants
)
)
v.
)
)
T-MOBILE US INCORPORATED,
)
formerly known as MetroPCS
)
Communications Incorporated; T-MOBILE )
USA, INCORPORATED; T-SYSTEMS
)
NORTH AMERICA I NCORPORATED;
)
DEUTSCHE TELEKOM NORTH
)
AMERICA INCORPORATED
)
)
Defendants-Appellees
)
__________________________________________)
Appeal from the United States District Court
for the Northern District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion 2/27/20, 5 Cir., ___________ ___________
F.3d____________ )
Before DAVIS, SMITH, and HIGGINSON, Circuit
Judges.

App. 65
PER CURIAM:
(X)

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the
court having requested that the court be polled
on Rehearing En Banc (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.

()

Treating the Petition for Rehearing En Banc as
a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having
been polled at the request of one of the members
of the court and a majority of the judges who are
in regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH
CIR. R. 35), the Petition for Rehearing En Banc
is DENIED.

ENTERED FOR THE COURT:
/s/_______________________
UNITED STATES
CIRCUIT JUDGE

App. 66

APPENDIX H
47 U.S.C. § 615a
47 U.S. Code § 615a - Service provider parity of
protection
(a) Provider parity
A wireless carrier, IP-enabled voice service provider, or
other emergency communications provider, and their
officers, directors, employees, vendors, and agents,
shall have immunity or other protection from liability
in a State of a scope and extent that is not less than the
scope and extent of immunity or other protection from
liability that any local exchange company, and its
officers, directors, employees, vendors, or agents, have
under Federal and State law (whether through statute,
judicial decision, tariffs filed by such local exchange
company, or otherwise) applicable in such State,
including in connection with an act or omission
involving the release to a PSAP, emergency medical
service provider or emergency dispatch provider, public
safety, fire service or law enforcement official, or
hospital emergency or trauma care facility of
subscriber information related to emergency calls,
emergency services, or other emergency
communications services.
(b) User parity
A person using wireless 9–1–1 service, or making
9–1–1 communications via IP-enabled voice service or
other emergency communications service, shall have

App. 67
immunity or other protection from liability of a scope
and extent that is not less than the scope and extent of
immunity or other protection from liability under
applicable law in similar circumstances of a person
using 9–1–1 service that is not via wireless 9–1–1
service, IP-enabled voice service, or other emergency
communications service.
(c) PSAP parity
In matters related to 9–1–1 communications via
wireless 9–1–1 service, IP-enabled voice service, or
other emergency communications service, a PSAP, and
its employees, vendors, agents, and authorizing
government entity (if any) shall have immunity or
other protection from liability of a scope and extent
that is not less than the scope and extent of immunity
or other protection from liability under applicable law
accorded to such PSAP, employees, vendors, agents,
and authorizing government entity, respectively, in
matters related to 9–1–1 communications that are not
via wireless 9–1–1 service, IP-enabled voice service, or
other emergency communications service.
(d) Basis for enactment
This section is enacted as an exercise of the
enforcement power of the Congress under section 5 of
the Fourteenth Amendment to the Constitution and the
power of the Congress to regulate commerce with
foreign nations, among the several States, and with
Indian tribes.

App. 68
Tex. Health & Safety Code Ann. § 771.053(a)
HEALTH AND SAFETY CODE
TITLE 9. SAFETY
SUBTITLE B. EMERGENCIES
CHAPTER 771. STATE ADMINISTRATION OF
EMERGENCY COMMUNICATIONS
SUBCHAPTER C. ADMINISTRATION OF
STATE EMERGENCY COMMUNICATIONS
Sec. 771.053. STATEWIDE LIMITATION ON
LIABILITY OF SERVICE PROVIDERS AND
CERTAIN PUBLIC OFFICERS. (a) A service provider
of communications service involved in providing 9-1-1
service, a manufacturer of equipment used in providing
9-1-1 service, a developer of software used in providing
9-1-1 service, a third party or other entity involved in
providing 9-1-1 service, or an officer, director, or
employee of the service provider, manufacturer,
developer, third party, or other entity involved in
providing 9-1-1 service is not liable for any claim,
damage, or loss arising from the provision of 9-1-1
service unless the act or omission proximately causing
the claim, damage, or loss constitutes gross negligence,
recklessness, or intentional misconduct.
(b) A member of the commission or of the governing
body of a public agency is not liable for any claim,
damage, or loss arising from the provision of 9-1-1
service unless the act or omission causing the claim,
damage, or loss violates a statute or ordinance
applicable to the action.
(c) This section shall be interpreted to provide
protection relating to confidentiality and immunity and

App. 69
protection from liability with at least the same scope
and to at least the same extent as described by federal
law, including 47 U.S.C. Section 615a and 47 U.S.C.
Section 1472.
Acts 1989, 71st Leg., ch. 678, Sec. 1, eff. Sept. 1, 1989.
Amended by Acts 1993, 73rd Leg., ch. 936, Sec. 2, eff.
Aug. 30, 1993; Acts 1999, 76th Leg., ch. 1405, Sec. 15,
eff. Sept. 1, 1999. Amended by:
Acts 2013, 83rd Leg., R.S., Ch. 331 (H.B. 1972), Sec.
2, eff. September 1, 2013.
Acts 2013, 83rd Leg., R.S., Ch. 331 (H.B. 1972), Sec.
3, eff. September 1, 2013.
Tex. Health & Safety Code Ann. § 772.407
HEALTH AND SAFETY CODE
TITLE 9. SAFETY
SUBTITLE B. EMERGENCIES
CHAPTER 772. LOCAL ADMINISTRATION OF
EMERGENCY COMMUNICATIONS
SUBCHAPTER E. EMERGENCY
COMMUNICATION SERVICE: COUNTIES
WITH POPULATION OVER TWO MILLION
Sec. 772.407. LIABILITY OF SERVICE PROVIDERS.
A service supplier involved in providing 9-1-1 service,
a manufacturer of equipment used in providing 9-1-1
service, or an officer or employee of a service supplier
involved in providing 9-1-1 service is not liable for any
claim, damage, or loss arising from the provision of
9-1-1 service unless the act or omission proximately
causing the claim, damage, or loss constitutes gross

App. 70
negligence, recklessness, or intentional misconduct.
Added by Acts 1995, 74th Leg., ch. 638, Sec. 21, eff.
Sept. 1, 1995.

App. 71

APPENDIX I

23 October 2017
Chief Justice Roberts, Jr.
The Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE: Vickie Cook, et al. v. T-Mobile USA, Inc., et al.
No. 17-191.
Supreme Court of the U.S. 29 March 2017
Dear Chief Justice Roberts, Jr.:
This letter is filed in support of the aforementioned
petition filed with the Supreme Court of the United
States. This case is of special significance to the citizens
of the United States of America and public safety.
The International Academies of Emergency Dispatch
(the “Academy”) is a non-profit corporation based in
Salt Lake City, Utah. The mission of the Academy is
“[t]o advance and support public-safety emergency
telecommunication professionals and ensure that
citizens in need of emergency, health, and social
services are matched safely, quickly and effectively
with the most appropriate resource.”

App. 72
The Academy was created in 1988 as a standardsetting organization in the field of emergency 9-1-1
dispatch and response. The Academy has occupied two
roles: one as a membership-driven association for the
professional recognition of dispatchers, and the other
as an organization that develops and maintains
dispatch protocols and curriculum for use in effectively
responding to emergency calls for help (e.g. 9-1-1 calls)
by providing state-of-the-art protocols that assists in
the most appropriate allocation of an emergency
communication center’s resources.
The Academy’s medical, fire, police, and nurse
triage protocols are used in over 3,500 communication
centers, 46 countries and 24 languages and dialects.
The protocols represent the de facto standard of care
and practice in 9-1-1 dispatching. The Academy’s
protocols will take approximately 80 million calls this
year with over 71 million people living in communities
using the protocols. The Academy has trained and
certified over 210,000 emergency medical, police, fire,
and nurse dispatchers.
Organizationally, the Academy has 17 boards,
councils, and special committees. These boards,
councils and committees include the world’s foremost
experts in medical, fire, police, and nurse triage
dispatch. To stay current, the Academy’s protocols are
continuously examined and studied, changes are made
based upon continuing scientific research, along with
practical field experience provided as feedback from
thousands of emergency dispatch users. More
information about the Academy can be found at
http://www.emergencydispatch.org/.

App. 73
9-1-1 calls are often quite literally a matter of life or
death. Properly handled 9-1-1 calls can, and do, save
lives. Mishandled 9-1-1 calls can lead to, or even cause,
death. The margin of error for 9-1-1 emergency
communication centers and the technology providers
they partner with is thin; thus, following the standard
of care and practice is of paramount importance.
The Academy has 30 years of experience dealing
with questions and issues in and around the question
of liability for emergency dispatch at both the judicial
and the legislative level. In general, the Academy is
opposed to sovereign, governmental, or technology
provider immunity. In the Academy’s experience, the
liability at the point of dispatch should not turn on the
applicability of immunity, but rather whether or not
the standard of care and practice was met. In today’s
world of technological advances, not following the
standard of care and practice at dispatch is prima facie
evidence of gross negligence, recklessness, or
intentional misconduct. In other words, the Academy
believes that even if immunity does apply, it should be
pierced based on a failure to follow the standard of care
and practice.
Based on the facts in the present case, the Academy
believes that giving immunity to the mobile providers
will take the science of dispatching back to the “stone
age.” Providers of mobile services must be held to
perform their emergency services with reasonableness
based on the industry standards of care and practice.
In this case, Deanna Cook fatally relied on the
statements of the Respondents regarding their

App. 74
emergency 9-1-1 location services. The statements were
false, and Ms. Deanna Cook is dead.
The Academy believes that a mobile provider
delivering accurate location services in a 9-1-1
situation is the standard of care and practice in today’s
technological world. Not providing such location
services is prima facie evidence of gross negligence,
recklessness, or intentional misconduct. At minimum,
the case should at least be adjudicated on its merits to
determine if liability exists.
Should blanket immunity be applied to mobile
providers in this case, and in others like it, it becomes
hard to imagine a case where immunity would never
apply. By setting this precedent, mobile providers of 91-1 services will never be subject to the risk of liability,
and therefore shall have no incentive for advancing
their technology or promptly fixing issues which arise.
In such a scenario, mobile providers can advertise and
do whatever they want without the fear of
accountability or reprisal, and people will continue to
die unnecessarily. 9-1-1 emergency dispatchers will
also be put at occupational and legal risk when routine
information they must rely on is flawed or missing. The
Academy believes this will lead to a slippery slope of
unintended consequences in the public safety realm.
Those that have died or are injured because of inferior
mobile providers, or their hollow promises, must have
their day in court to determine whether the mobile
providers have met the standard of care and practice.
Mobile providers must be held to a standard of care.

App. 75
Sincerely,
/s/ Brent Hawkins
Brent Hawkins
General Counsel
CC:

Board of Trustees – International Academies of
Emergency Dispatch
Jerry Overton – President (Academy)
Jeffrey Clawson, M.D. – Rules Committee Chair,
Council of Standards (Academy)
Pamela Stewart – Board of Certification Chair
(Academy)
Isabel Gardett, Ph.D. – Director of Academics,
Research, and Communication (Academy)

